No. 19-373

 

 

IN THE
Supreme Court of the United States

JAMES WALKER,

Petitioner,
v.

UNITED STATES,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

BRIEF OF AMERICAN IMMIGRATION
COUNCIL, AMERICAN IMMIGRATION
LAWYERS ASSOCIATION, IMMIGRANT
DEFENSE PROJECT, JUST FUTURES LAW,
NATIONAL IMMIGRANT JUSTICE CENTER,
NATIONAL IMMIGRATION PROJECT OF THE
NATIONAL LAWYERS GUILD, AND
NORTHWEST IMMIGRANT RIGHTS PROJECT
AS AMICI CURIAE IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,681 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 13, 2020.

 

Wilson-Epes Printing Co., Inc.
